MATTHEW L. SCHWARTZ
Tel: (212) 303-3646
Email: mlschwartz@bsfllp.com
May 28, 2021
BY ELECTRONIC FILING
The Honorable Scott Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
RE:

Archer v. United States, No. 20-1644

Dear Mr. Harris,
I represent Petitioner Devon Archer in the above-referenced case. In accordance with
Rule 37.3(a) of the Rules of the Supreme Court of the United States, Mr. Archer hereby grants
blanket consent to the filing of amicus curiae briefs in support of either or neither party in this
matter.
Thank you for your consideration.
Respectfully,
/s/ Matthew L. Schwartz
Matthew L. Schwartz
BOIES SCHILLER FLEXNER LLP
55 Hudson Yards
New York, New York 10001
Tel.: (212) 303-3646
mlschwartz@bsfllp.com
Counsel for Devon Archer
cc:

Elizabeth Prelogar
Acting Solicitor General
SupremeCtBriefs@USDOJ.gov

